   September 5, 2003




Logistics


Accountability and Control
of Materiel at the Ogden
Air Logistics Center
(D-2003-130)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

AFMC                  Air Force Materiel Command
ICBM                  Inter-Continental Ballistic Missile
OO-ALC                Ogden Air Logistics Center
SSC                   Shop Service Center
WSSC                  Weapon System Support Center
          Office of the Inspector General of the Department of Defense
Report No. D-2003-130                                                  September 5, 2003
   (Project No. D2003LH-0016)

                     Accountability and Control of Materiel
                       at the Ogden Air Logistics Center

                                Executive Summary

Who Should Read This Report and Why? Civil service and uniformed officers who
are involved in materiel management of items used for repair and overhaul processes
should read this report. The report discusses compliance with policies and procedures
used to account for and control materiel at Ogden Air Logistics Center.

Background. This is the seventh in a series of reports the Inspector General of the
Department of Defense is issuing that discuss accountability and control of materiel at
DoD maintenance depots. The FY 2003 budget for DoD depot maintenance was
approximately $16 billion. The Air Force portion of that amount was about $6.5 billion.
According to Ogden Air Logistics Center Comptroller’s Office, the FY 2003 budget for
the operation of the depot was about $294.3 million. The D035K Wholesale and Retail
and Shipping System showed that the value of the Ogden Air Logistics Center depot
maintenance materiel inventory was about $60.5 million.

Depot maintenance facilities need effective inventory control systems to ensure that an
adequate supply of materiel is on-hand to maintain efficient levels of operation and to
meet the demands of customers. An effective system is also important to disclose
defective and obsolete goods; to prevent loss through damage, pilferage, or waste; and to
ensure the accuracy of inventory records. Through inventory control, materiel not needed
for current requirements at a depot can be identified and made available for redistribution
to meet other known requirements.

Results. The Ogden Air Logistics Center did not effectively manage or control materiel
stored in local maintenance shops. Inventory records had projected count errors of about
11 percent. The errors had overstatements valued at an estimated $6.2 million and
understatements valued at an estimated $2.8 million. Also, about $9.5 million of
unaccountable materiel and about $10.9 million of excess materiel was found on shop
floors and in storage areas. As a result, the Ogden Air Logistics Center had inventories
that were difficult to manage. Further, the unrecorded, excess materiel was not visible to
satisfy needs elsewhere and, lacking visibility, allowed materiel to be subject to loss,
obsolescence, and theft. Consequently, because of the unaccounted for inventory and
excess materiel, the Ogden Air Logistics Center could have about $20.4 million in
potential monetary benefits. Complying with Air Force guidance on management of
materiel and performing an annual physical inventory that includes materiel located on
shop floors and other storage areas, as well as materiel listed in the materiel processing
system, should improve management oversight of maintenance materiel.
Implementing the recommendations in this report would allow Ogden Air Logistics
Center to improve the management of materiel and would correct material management
control weaknesses identified by this audit. (See the Finding section for the detailed
recommendations).

Management Comments and Audit Response. The Air Force concurred with all
recommendations in this report and stated that guidance had been developed regarding
the management of maintenance materiel that includes guidance for accountability and
control of materiel, conducting annual inventories, and performing reconciliation.
However, the Air Force had concerns as to the whether the $20.4 million of potential
monetary benefits identified by the audit would be fully realizable. The Air Force plans
to determine by October 1, 2003, the actual monetary benefit achieved. At the request of
the Air Force, we sent the Ogden Air Logistics Center the list of unaccountable and
excess materiel that we identified during the audit. This action satisfies the intent of the
recommendations.




                                             ii
Table of Contents

Executive Summary                                            i

Background                                                   1

Objectives                                                   2

Finding
     Management of Materiel at Ogden Air Logistics Center    3

Appendixes
     A. Scope and Methodology                                9
          Management Control Program Review                 10
     B. Prior Coverage                                      12
     C. Report Distribution                                 13

Management Comments
     Department of the Air Force                            15
Background
    This is the seventh in a series of reports resulting from our audit of accountability
    and control of materiel at DoD maintenance depots. The Joint Group on Depot
    Maintenance estimated DoD maintenance expenditures to be about $16 billion for
    FY 2003. The Air Force portion of that amount was about $6.5 billion for
    operation of three depot maintenance facilities. About 30-40 percent of the Air
    Force depot maintenance budget is for purchasing materiel used in repair and
    overhaul processes at depot maintenance facilities. According to Ogden Air
    Logistics Center (OO-ALC) Comptroller’s Office, the FY 2003 budget for the
    operation of the depot was about $294.3 million. The D035K Wholesale and
    Retail and Shipping System (DO35K) showed that the value of the OO-ALC
    depot maintenance materiel inventory was about $60.5 million.

    Ogden Air Logistics Center. OO-ALC, located in Ogden, Utah, is one of three
    Air Force depot maintenance facilities. OO-ALC provides worldwide engineering
    and logistics management. It also overhauls and repairs landing gear, wheels, and
    brakes for all Air Force aircrafts and 70 percent of DoD aircrafts, rocket motors,
    air munitions, photonics equipment, training devices, avionics, software, and
    other aerospace-related components. The OO-ALC Maintenance Directorate has
    overall responsibility of depot-level maintenance for the maintenance divisions,
    which include the Aircraft Division, Commodities Division, Electronics Division,
    and Inter-Continental Ballistic Missile (ICBM) Division.

    Shop Service Centers (SSCs) and Weapon System Support Centers (WSSCs) are
    forward supply organizations located in the maintenance division work areas. The
    SSCs/WSSCs are the standard materiel and production support function for depot
    maintenance. SSCs/WSSCs provide all supply-related services to the depot
    maintenance customer, which includes stocking, storing, and issuing aircraft and
    repair parts. The SSCs/WSSCs are responsible to the maintenance customer for
    all aspects of supply support and are responsible and accountable for managing
    stock. Further, the SSCs/WSSCs are responsible for scheduling and completing
    inventories of all assets on at least an annual basis.

    Accounting For and Controlling Materiel. Inventory control is defined as the
    control of materiel by accounting and physical controls. Accounting control
    involves properly recording and reporting of inventories. Physical control is the
    incorporation of adequate safeguards for receiving, storing, handling, and issuing
    materiel. A physical inventory tests the accounting and physical controls by
    validating an item’s storage location, on-hand quantity, and condition by counting
    and physically inspecting the items.

    Inventory control is needed to ensure that an adequate supply of materiel is
    on-hand to maintain efficient levels of operation and to meet the demands of
    customers. Effective inventory control is also essential in disclosing defective and
    obsolete goods; preventing loss through damage, pilferage, or waste; ensuring
    inventory accuracy; and identifying materiel not needed for current requirements
    so that materiel can be made available for redistribution to meet other known
    requirements.



                                          1
           Management Oversight. The Air Force Materiel Command (AFMC) has
           primary responsibility for the three Air Logistics Centers and provides overall
           guidance for managing materiel. Air Force Manual 23-110, “U.S. Air Force
           Supply Manual,” January 1, 2002, and AFMC Instruction 21-130, “Equipment
           Maintenance Materiel Control,” August 2000, provide policy and procedural
           guidance for management and control of materiel at the Air Logistics Centers.

           Storage of Materiel. The OO-ALC Maintenance Directorate is responsible for
           depot-level maintenance. OO-ALC storage areas for regular inventory, courtesy
           storage, and “awaiting parts1” inventory are located in the Aircraft, Electronics,
           ICBM, and Commodities Divisions. All the materiel in the storage areas is in
           support of the repair and manufacturing of weapon systems at OO-ALC.

           D035K Wholesale and Retail Receiving and Shipping System. The D035K is
           the primary data system used by the Air Force to provide materiel support for
           depot-level operations. It is used to process receipts from vendors and other
           suppliers and track materiel turned in from the maintenance divisions. The
           D035K also directs the movement of materiel into and out of storage and keeps
           track of where the materiel is located. Additionally, the system can be used to
           compute requirements and process retail customer requests and related
           transactions in support of maintenance. The D035K is the official accountability
           system for materiel stored at depot maintenance facilities.


Objectives
           Our overall objective was to evaluate the effectiveness of policies and procedures
           used to account for and control materiel at OO-ALC. We also reviewed the
           adequacy of the management control program as it related to the overall objective.
           See Appendix A for a discussion of the scope and methodology and our review of
           the management control program. See Appendix B for prior coverage.




1
    Reparable items for which parts are not currently available.



                                                        2
                    Management of Materiel at Ogden Air
                    Logistics Center
                    OO-ALC did not effectively manage or control materiel stored in local
                    maintenance shops. The following conditions were found.

                             •   Maintenance inventory records, when matched to our physical
                                 count, had a projected count error rate of 11 percent. The error
                                 rate overstatements are valued at an estimated $6.2 million and
                                 error rate understatements are valued at an estimated
                                 $2.8 million.

                             •   Materiel found on shop floors and in storage areas of the
                                 Electronics Division was not recorded in accountable records.
                                 The materiel was valued at about $9.5 million.2

                             •   Excess materiel was maintained in courtesy storage areas of the
                                 maintenance divisions and also on shop floors of the Aircraft
                                 and Electronics divisions. The materiel had either not been
                                 used within the previous 6 months or had no demand history.
                                 The excess materiel was valued at about $10.9 million.

                    Those conditions occurred because complete annual physical inventories
                    and semi-annual reviews of courtesy storage materiel were not consistently
                    performed. As a result, OO-ALC had inventories that were difficult to
                    manage and included materiel that was either unaccounted for or excess to
                    known requirements. Consequently, because of the unaccounted for
                    inventory and excess materiel, OO-ALC could have about $20.4 million in
                    potential monetary benefits. In addition to the potential monetary benefits,
                    there were substantial errors in the inventory records with values of
                    overstatements and understatements that were significant. Further, the
                    unrecorded, excess materiel was not visible to satisfy needs elsewhere and,
                    lacking visibility, the materiel was vulnerable to loss, obsolescence, and
                    theft.


Guidance
           DoD Guidance. DoD Regulation 4140.1-R, “DoD Materiel Management
           Regulation,” May 1998, provides policies for DoD components regarding
           management of materiel. The regulation states that DoD components with
           physical custody of materiel are responsible to care for and safeguard the materiel
           and shall maintain quantitative balance records by individual storage location.
           Also, DoD components shall conduct annual physical inventories and shall take
           appropriate actions to ensure that the on-hand quantity and property records agree.
2
    A judgmental sample was used to select materiel located on the floor of maintenance shops and in storage
    areas for review. The results presented are limited to the sample reviewed and cannot be generalized to
    the universe.



                                                       3
    Air Force Guidance. Air Force Manual 23-110 states that physical inventories of
    all properties held by Air Force organizations will be conducted annually. The
    purpose of physical inventories is to validate the accounts and correct errors. The
    process of taking a physical inventory involves physically counting the property,
    comparing those counts to record balances, and adjusting or correcting records so
    that record balances and quantity of property on-hand are identical.

    AFMC Instruction 21-130 establishes policies and procedures for depot-level
    maintenance materiel control, support, and management of assets at the Air
    Logistics Centers. The instruction defines courtesy storage as a temporary
    holding area, provided as a courtesy for maintenance-owned materiel. It is not to
    be used as a collection and holding area for materiel that maintenance cannot use
    in a timely manner. As a minimum, an inventory of all courtesy storage locations
    shall take place every 6 months to identify items that have not been consumed
    within the previous 6 month period. Any materiel that has not been used during
    the prior 6 months and has no known requirements should be turned in to supply,
    whether or not credit can be obtained.

    In January 2003, AFMC issued a memorandum to the Air Logistics Centers
    stating that excess materiel shall be turned in to supply if there is no current or
    future requirement for the material. Also, courtesy storage inventory results will
    be forwarded to AFMC and will include the total number of items in each
    courtesy storage location as well as the number of items that have been stored in
    excess of six months.


Audit Universe and Sample Selection
    We used D035K data as of November 20, 2002, to identify an audit universe of
    22,575 records for the 4 OO-ALC maintenance divisions. The audit universe was
    valued at $60.5 million. We used a stratified random sample to select 345 records
    at those 4 OO-ALC maintenance divisions. The sample included 17 records from
    the Aircraft Division, 153 records from the Commodities Division, 150 records
    from the Electronics Division, and 25 records from the ICBM Division. We
    compared the on-hand balances shown on the D035K inventory records with the
    results of our physical count of materiel in the maintenance divisions.


Inventory Records
    OO-ALC did not effectively manage or control materiel stored in local
    maintenance shops. Maintenance inventory records, when matched to a physical
    count, had a projected count error rate of 11 percent.

    OO-ALC maintained inaccurate inventory records in the D035K. Using our
    stratified random sample approach, we performed a physical count of selected
    materiel stored in the maintenance divisions and compared it to the on-hand
    balances shown in DO35K inventory records. From our sample, we projected at
    the 90 percent confidence level that 2,530 (11 percent) of the records in DO35K


                                          4
           had on-hand quantity amounts that differed from the physical count we took. The
           lower and upper limits of our estimate is 1,083 (4.8. percent) and 3,978
           (18 percent). The discrepancies involve overstatements of inventory, valued at an
           estimated $6.2 million, and understatements of inventory, valued at an estimated
           $2.8 million.


Accountable Records
           Materiel found on shop floors and in storage areas of the Electronics Division was
           not recorded in accountable records. That materiel was valued at about
           $9.5 million. We reviewed for unaccountable materiel in one of the four
           divisions, which was the Electronics Division. We selected the Electronics
           Division because of the sensitivity and the potential large dollar value of the
           materiel. We did not search for unaccountable materiel in the Aircraft,
           Commodities, or ICBM divisions. We selected and counted 372 items found on
           maintenance shop floors and in storage areas of the Electronics divisions3. Most
           of the materiel counted was labeled as “mockup.” Our physical inventory and
           discussions with shop personnel showed that the materiel was not accounted for in
           any way and, therefore, was not visible to satisfy needs elsewhere. The mockups
           and other materiel that we found were not accounted for in any of the records we
           reviewed. We were able to obtain prices for 337 of the 372 items, which totaled
           about $9.5 million. Examples of unrecorded materiel found are shown in the
           following table.


                                      Examples of Unrecorded Materiel
                                          (as of December 2002)

                  National Stock Number         Description                 Quantity        Unit Price
                  1270-01-446-7426              Power Supply                   1            $337,122
                  5985-01-146-4630              Low Noise Assembly             1            $222,228
                  1270-01-282-7914              Radar Computer                 1            $162,639




Storage of Maintenance Materiel
           Excess materiel was maintained in courtesy storage areas of the maintenance
           divisions and also on shop floors in the Aircraft and Electronics divisions. The
           materiel had either not been used within the previous 6 months or had no demand
           history. The excess materiel was valued at about $10.9 million.


3
    A judgmental sample was used to select materiel located on the floor of maintenance shops and in storage
    areas for review. The results presented are limited to the sample reviewed and cannot be generalized to
    the universe.



                                                       5
            Materiel Processing System. Courtesy storage materiel that was listed in the
            materiel processing system--a local database system--was deemed to be excess.
            The materiel had either not been used within the previous 6 months or had little or
            no demand history. According to SSC chiefs, materiel listed in the materiel
            processing system was either previously collected from shop floors or transferred
            in from another depot. Also, the materiel processing system was only visible to
            shop personnel and was not listed in the DO35K database for visibility to others.
            The Aircraft, Commodities, and ICBM divisions stored materiel in the materiel
            processing system.

                    Aircraft Division. For the Aircraft Division, the materiel processing
            system showed 2,202 records in courtesy storage inventory. Of the 2,202 records,
            only 93 had activity within the last 6 months. The remaining 2,109 records either
            had no activity within the last 6 months, or the records showed no demand history,
            and therefore, the materiel was excess. Unit prices were only available for 1,712
            of the 2,109 records, which were valued at about $2.2 million.

                    Commodities Division. In the Commodities Division, the materiel
            processing system showed 1,231 records on-hand that were excess. The SSC
            chief stated that the materiel had been transferred in from an Air Force depot that
            was closed in 2001. The SSC chief also stated that the materiel had minimal
            demand activity while at OO-ALC. Unit prices were available for 1,115 of
            1,231 records, which were valued at about $8 million.

                   ICBM Division. The materiel processing system showed that the ICBM
            Division stored about 77 records of materiel in courtesy storage. The records did
            not show any demand history for these items and the SSC chief stated that these
            items had minimal usage. Therefore, these items were excess. Unit prices were
            only available for 8 of the 77 items, which were valued at $29,061.

            For the year ending December 2002, OO-ALC had transferred about $2 million of
            the inventory records from courtesy storage to the DO35K. According to
            OO-ALC officials, as of April 23, 2003, most of the materiel listed in the materiel
            processing system had either been turned in to supply, placed on the D035K
            database, or disposed of.

            DO35K. The DO35K contained courtesy storage materiel that was determined to
            be excess. The DO35K had 1,401 records on-hand with an estimated value of
            $2.78 million. We accessed the DO35K to find the date of last activity and found
            that 368 of the 1,401 records had no activity within the last 6 months or no
            demand history, and therefore, that materiel was excess. We were only able to
            obtain unit prices for 297 of the 368 records, which showed an extended value of
            about $415,019.

            Shop Floors. Excess materiel was found on shop floors of both the Aircraft and
            Electronics divisions. We selected and counted 45 items for review and found
            each of those items to be excess, which shop personnel confirmed4. Shop


4
    A judgmental sample was used to select materiel located on the floor of maintenance shops for review.
    The results presented are limited to the sample reviewed and cannot be generalized to the universe.



                                                       6
     personnel indicated that some of the excess materiel had been transferred in from
     another depot that had closed, but the excess materiel had no usage or demand
     activity at OO-ALC. The 45 items had a value of about $317,826.


Physical Inventories
     Count errors occurred, materiel went unrecorded, and excess materiel
     accumulated because personnel in the maintenance divisions did not always
     perform complete annual physical inventories as required. Also, a reconciliation
     of inventory records was not always performed to ensure that the physical count
     and location assignment matched the records in DO35K. Personnel responsible
     for physical inventories may have performed a physical inventory of the materiel
     shown in the D035K, but did not always retain supporting documentation to show
     the results of the physical count or any adjustments to inventory records. Also,
     some types of materiel, such as mockups, were not included in the physical count.
     During our visit, shop personnel throughout the maintenance divisions began
     conducting a physical inventory, identifying unrecorded items, and accounting for
     all materiel.


Semi-Annual Reviews
     OO-ALC personnel did not perform semi-annual reviews of courtesy storage
     materiel as AFMC Instruction 21-130 requires. The instruction requires semi-
     annual review of materiel in courtesy storage. The review includes consumption
     history and determining whether a known immediate requirement exists. SSC
     chiefs in the Aircraft, the ICBM, and Commodities divisions did not perform
     semi-annual reviews of courtesy storage inventories to validate whether the
     materiel had consumption history over the last 6 months or whether the materiel
     had immediate requirements. OO-ALC personnel were aware of the requirement
     to perform the semi-annual reviews.


Potential Monetary Benefits
     The audit identified excess and unrecorded materiel valued at about $20.4 million.
     Therefore, OO-ALC could have about $20.4 million of potential monetary
     benefits. The exact amount cannot be determined until OO-ALC completes its
     annual physical inventory count of all materiel in the maintenance divisions--
     including the materiel on maintenance shop floors and in storage areas--and
     reconciles the results with the DO35K.




                                         7
Recommendations and Management Comments
    We recommend that the Commander, Ogden Air Logistics Center
    immediately:

           1. Comply with the guidance in Air Force Manual 23-110, “U.S. Air
    Force Supply Manual,” and Air Force Materiel Command Instruction 21-
    130, “Equipment Maintenance Materiel Control,” regarding the
    management of maintenance materiel stored at the Air Logistics Center.

    Management Comments. The Air Force concurred and stated that the
    Ogden Air Logistics Center Director of Maintenance has developed instructions
    for the turning-in of materiel.

           2. Perform an annual physical inventory of all materiel recorded in
    the D035K Wholesale and Retail and Shipping System that is the
    responsibility of the Maintenance Directorate, reconcile the results, and turn
    in excess materiel to supply.

    Management Comments. The Air Force concurred and stated that it has
    developed instructions to ensure compliance and timely completion of all required
    inventories and will implement the instructions by October 1, 2003.

           3. Perform a physical count of all materiel located on the
    maintenance shop floors and in storage areas to identify unaccountable and
    excess materiel, reconcile the physical count to the D035K Wholesale and
    Retail and Shipping System, and turn in excess materiel to supply.

    Management Comments. The Air Force concurred and stated that the Ogden
    Air Logistics Center Director of Maintenance has developed guidance on the
    disposition of excess materiel and will continue to identify and turn in excess
    materiel. Unaccountable materiel will be placed on accountable records by
    December 31, 2003.

          4. Complete the review of courtesy storage materiel listed in the
    materiel processing system and either turn in the excess to supply, move to
    DO35K Wholesale and Retail and Shipping System, or dispose of the
    materiel.

    Management Comments. The Air Force concurred and stated that it is in the
    process of completing the research and identification of excess materiel to
    determine proper disposition. The anticipated completion date is October 1, 2003.

    Management Comments on the Potential Monetary Benefits. The Air Force
    agreed that excess materiel was not properly accounted for. However, the Air
    Force had concerns as to the whether the $20.4 million of potential monetary
    benefits identified by the audit would be fully realizable. By October 1, 2003, the
    Air Force expects to determine the actual monetary benefit achieved. We have
    sent the Air Force the list of unaccountable and excess materiel that we identified
    during the audit. This action satisfies the intent of the recommendations.


                                         8
Appendix A. Scope and Methodology
   We performed this audit at the OO-ALC, located in Ogden, Utah. We contacted
   personnel at OO-ALC. We concentrated on accountability and control of
   materiel. D035K inventory records as of November 20, 2002, showed that
   OO-ALC had 22,575 records, valued at about $60.5 million. We reviewed DoD
   and Air Force regulations regarding policies, responsibilities, and procedures for
   accounting for and controlling materiel at Air Force Air Logistics Centers. To
   determine whether materiel was accurately accounted for and controlled in
   inventory records, we physically inventoried materiel stored in the Aircraft,
   Electronics, ICBM, and Commodities divisions. We also determined whether
   annual inventories and semi-annual reviews were being performed and whether
   management reports were being prepared. We statistically selected for review
   345 records from the universe of 22,575 records. Because of the potential high
   dollar value and the sensitivity of the items, we used judgmental samples to select
   materiel located in maintenance storerooms and on shop floors. We determined
   unit prices by using OO-ALC inventory records from the D035K, the Air Force
   Master Item Identification Database (DO43A), and the Federal Logistics
   Information Record. We performed this audit from November 2002 through June
   2003 in accordance with generally accepted government audit standards.

   Sample Design. We used a stratified random sample design based on the materiel
   extended value per storage record as of November 20, 2002. We statistically
   selected storage records within the strata as shown in the following table.


                                Population and Sampling
                                                          Number of Storage Records
   Stratum            Description                      Universe             Sample Size

     1            Extended Value > $500,000
                   Or Unit Price >$100,000                24                     24

     2            >$0 - $100                            8,489                    27

     3            >$100 - $1,000                        7,657                    28

     4            >$1,000 - $10,000                     4,086                    93

     5            >10,000 - $20,000                       469                    28

     6            >$20,000 - $500,000
                   and Unit Price <$100,000               410                   115

     7            No Location: Extended Value > $500
                   Or Unit Price >$100                  1,440                    30

    Total                                              22,575                   345



                                          9
    Sample Results. Using the stratified sample design, we calculated statistical
    projections of the count errors of materiel in storage locations and the projected
    values of the overstated and understated inventories. Based on the sample results,
    using a 90 percent confidence level, we projected that between 1,083 and 3,978 of
    the 22,575 records had materiel count errors at OO-ALC. The point estimate
    2,530 was the mid point of the range of the values. We further projected that the
    overstated value of the materiel in error was between $4.96 million and
    $7.46 million. The point estimate $6.21 million was the mid point of the range of
    values. The understated value of the materiel in error was between $0.42 million
    and $5.25 million. The point estimate of $2.83 million was the mid point of the
    range of values.

    Use of Computer-Processed Data. We relied on computer-processed data from
    D035K for determining the accuracy of inventory records. Our review of system
    controls and the results of data tests showed an error rate that cast doubt on the
    validity of the data. However, we reviewed the data in context with other
    available evidence and concluded that the opinions, conclusions, and
    recommendations in this report are valid.

    Use of Technical Assistance. Research analysts from the Quantitative Methods
    Division, Office of the Inspector General of the Department of Defense provided
    assistance in designing the statistical sampling plan for selecting inventory records
    for review and projecting the results.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Inventory Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of management controls at OO-ALC regarding accountability and
    excess materiel. We also reviewed the results of management’s self-evaluation of
    those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for OO-ALC as defined by DoD Instruction 5010.40.
    OO-ALC management controls for managing depot maintenance materiel were
    not adequate to ensure that materiel was accounted for and that excess materiel
    was controlled. Further, annual physical inventories and semi-annual reviews to
    determine the necessity of the materiel in regular inventory, courtesy storage, and
    “awaiting parts” inventory were not being performed as required. All



                                         10
recommendations, if implemented, will improve management of materiel. A copy
of the report will be provided to the senior official responsible for management
controls in the Air Force.

Adequacy of Management’s Self-Evaluation. OO-ALC officials did not
identify management of maintenance materiel as an assessable unit, and therefore,
did not identify or report the material management control weaknesses identified
by the audit.




                                   11
Appendix B. Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense
     (IG DoD) has issued six reports that discuss management of repair parts for
     maintenance. The Air Force Audit Agency has also issued three reports that
     discuss accountability and control of materiel. Unrestricted IG DoD reports can
     be accessed at http://www.dodig.osd.mil/audit/reports.

IG DoD
     IG DoD Report No. D-2003-064, “Accountability and Control of Materiel at the
     Warner Robins Air Logistics Center,” March 20, 2003

     IG DoD Report No. D-2003-057, “Accountability and Control of Materiel at the
     Naval Air Deport, Jacksonville,” March 5, 2003

     IG DoD Report No. D-2003-033, “Accountability and Control of Materiel at the
     Naval Air Depot, North Island,” December 6, 2002

     IG DoD Report No. D-2002-091, “Accountability and Control of Materiel at the
     Corpus Christi Army Depot,” May 21, 2002

     IG DoD Report No. D-2002-003, “Accountability and Control of Materiel at the
     Tobyhanna Army Depot,” October 4, 2001

     IG DoD Report No. D-2001-186, “Accountability and Control of Materiel at the
     Tobyhanna Army Depot – Stockage of Communications-Electronics Materiel,”
     September 21, 2001

Air Force
     Air Force Audit Agency, Audit Report No. F2003-0007-FCR000, “F-15
     Programmed Depot Maintenance Materiel Support,” December 19, 2002

     Air Force Audit Agency, Audit Report No. DR001034. “FX 2065 Special
     Inventory Account, Defense Logistics Agency, Robins Air Force Base, Georgia,”
     August 21, 2001

     Air Force Audit Agency, Audit Report No. DR001033, “Aircraft Materiel
     Management, C-5 Production Area, Warner Robins Air Logistics Center,”
     August 17, 2001




                                        12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Logistics and Materiel Readiness)
     Assistant Deputy Under Secretary of Defense (Maintenance Policy, Programs, and
       Resources)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Ogden Air Logistics Center

Other Defense Organizations
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Department of the Air Force
Comments




                      15
16
17
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Dennis E. Payne
Keith A. Yancey
Commander Jimmy R. Bobbitt, U.S. Navy
Elizabeth A. Denny
Beverly L. Cornish
Steven G. Schaefer
Charlisa Trahan
Brantley Thomas
Shanika S. Knight
Henry D. Barton
Susann L. Cobb
